 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General


         Independent Review of the
    U.S. Coast Guard (CG) Reporting of
    FY2004 Drug Control Funds Report




       Ofﬁce of Audits
OIG-05-13          March 2005
                                                                        Oflice of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528


                                                                        Homeland
                                                                        Security

                                     March 2 1,2005


MEMORANDUM FOR:               Admiral Thomas H. Collins
                              Commandant
                              US. Coast Guard

FROM:                         Richard L. Skinne
                              Acting Inspector General

SUBJECT:                      Independent Review ofthe US. Coast Guard Annual Accounting ofFY
                              2004 Drug Control Funds - Audit Report No. OIG-05-13     .


We have reviewed management's assertions in Section B of the accompanying U.S. Coast Guard's
(Coast Guard) annual report of FY 2004 drug control funds (Submission). The Submission,
including the assertions made, is required by 21 U.S.C 5 1704(d) and Office of National Drug
Control Policy (ONDCP) Circular, Drug Control Accounting (Circular), and is the responsibility of
Coast Guard's management.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the assertions in Section B of
the Submission. Accordingly, we do not express such an opinion.

The Independent Auditors ' Report for the FY 2004 financial statements of the Department of
Homeland Security (DHS), of which Coast Guard is a part, identified a material weakness related to
financial systems functionality and technology. The report also identified specific conditions at
Coast Guard that contributed to material weaknesses at DHS related to financial reporting, fund
balance with Treasury, budgetary accounting, and undelivered orders. Reportable conditions are
matters coming to the auditors' attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in the auditors' judgment, could
adversely affect DHS' ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components does
not reduce to a relatively low level the risk that misstatements, in amounts that would be material in
relation to the financial statements being audited, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions.

Based on our review, except for the effects, if any, of the material weaknesses, as described in the
preceding paragraph, nothing came to our attention that caused us to believe that management's
assertions included in Section B of the accompanying Submission are not fairly stated in all material
respects based on the criteria set forth in the Circular.
We provided Coast Guard's management with a draft copy of this report. Their response is included
at the end of the Submission. We made changes as deemed appropriate.

This report is intended solely for the information and use of Coast Guard, DHS, ONDCP, and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Should you have any questions concerning this review, please call me, or your staff may contact
J. Richard Berman, Assistant Inspector General for Audits, at (202) 254-4100.

Attachment

cc:   General Counsel
      DHS Chief Financial Officer
      Coast Guard, Chief Financial Officer
      DHS OIG Liaison
      CG Audit Liaison
      ORce of Security
U.S. Department                       Commandant                        2100 Second Street, S.W.
Homeland Secur                        United States Coast Guard         Washington, DC 20593-0001
                                                                        Staff Symbol: CG-822
                                                                        Phone: (202) 267-2415
United States                                                           Fax: (202) 267-4850
Coast Guard                                                             Email: DPokora@comdt.uscg.mil




Ms. Sue Schwendiman
Department of Homeland Security
Director of Financial Management
Office of the Inspector General
1120 Vermont Avenue, 10" Floor, NW
Washington, D.C. 20005

Dear Ms. Schwendiman,

In accordance with the Office of National Drug Control Policy (ONDCP) Circular. Annual
~ccountingof Drug Control Funds dated April 18,2003, I have enclosed Coast Guard's
response of FY 2004 drug control obligations, drug control methodology and assertions.

If you require W h e r assistance on this information, please contact Mr. Dave Pokora, x7-2415.

                                              Sincerely,



                                     *isr R.S. HOROWITZ
                                              Chief Financial Officer
                                              U.S. Coast Guard

Enclosure
Copy:       Chief Financial Officer, DHS
(a) Table of Prior Year Drug Control Obligations (dollars in millions)

                         RESOURCE SUMMARY                                   2004 Actual
        Drug Resources by Function:                                         Obligations
              Interdiction                                                   $823.327
              Research and Development                                          2.068
                                     Total Resources by Function              $825.395

        Drug Resources by Decision Unit:
              Operating Expenses (OE)                                          $564.889

                Reserve Training (RT)                                           $10.66.5

                Acquisition, Construction, and Improvements (AC&I)            $247.773

                Research, Development, Test and Evaluation (RDT&E)              $2.068

                                        Total Drug Control Obligations 1       $825.395    1
(1) Drug Methodology
    Over twenty years ago, the Coast Guard designed its cost allocation methodology to
systematically allocate funding to the Coast Guard's primary mission areas. This methodology
allocated Coast Guard costs based on the time that Coast Guard resources (cutters, aircraft, boats,
and personnel) spent on various types of missions. This view of the Coast Guard budget
provided valuable insight into the multi-mission use of assets and personnel. However, for many
years the only information taken into consideration was results of a past year's operational
activity. Prior to 1998, operational data (resource hours) and obligation data were downloaded
only at the end of the fiscal year to develop mission cost allocations for the year just completed
and budgetary projections for current and future years taking into account incremental changes.
Today, the methodology and software have been updated to take advantage of improved
technology. Further, the Coast Guard has developed an operating hour baseline as a method to
allocate resource hours for each resource class to multiple Coast Guard missions. This is the
basis for funding allocations in budget projections. The operating hour allocation, or baseline, is
developed and modified based upon line item requests, congressional direction and national
priorities.
   The Coast Guard's drug control funding estimates are computed by closely examining the
decision units, or appropriations, that comprise the Coast Guard's drug control budget estimates.
These decision units consist of: Operating Expenses (OE); Acquisition, Construction, and
Improvement (AC&I); Reserve Training (RT): and Research, Development, Test, and Evaluation
(RDT&E).
(1) Drug Methodology (Continued)

   Each decision unit contains its' own unique spending authority and methodology. For
example, AC&I includes fbnding that can last up to five years after appropriation and RDT&E
funding does not expire. OE and RT funding must be spent in the fiscal year it is appropriated
and therefore their methodology is the same.
Operating Expenses
    The majority of the funds the Coast Guard allocates to the drug interdiction program are in
the Operating Expenses (OE) decision unit. OE hnds are used to operate Coast Guard facilities,
maintain capital equipment, improve management effectiveness, and recruit, train, and sustain an
active duty military and civilian workforce. In the OE budget, the amount allocated to the drug
interdiction program is derived by allocating a share of the actual expenditures based upon the
amount of time aircraft, cutters, and boats spent conducting drug interdiction activities. The
Coast Guard tracks the resource hours spent on each of the 1 1 Coast Guard programs by using a
web-based Abstract of Operations (AOPS) data collection and report system. Coast Guard
AOPS data is used to develop the amount of time that each asset class spent conducting each of
the Coast Guard's missions. Using financial data gathered from over 3,000 cost centers around
the United States along with the Abstract of Operations information, the Coast Guard is able to
allocate OE costs to each of the 11 program areas consisting of: Drug Interdiction; Migrant
Interdiction; Ports, Waterways and Coastal Security; Other Law Enforcement; Defense
Readiness; Search and Rescue; Marine Safety; Ice Operations; Marine Environmental Protection;
Living Marine Resources; and Aids to Navigation.
Acquisition, Construction, and Improvements
    In scoring drug control funding requests within the zero-based Acquisition, Construction, and
Improvement (AC&I) decision unit, every line item requested in the FY 2004 AC&I budget was
evaluated for its anticipated contribution to drug interdiction efforts. For each AC&I Project, a
discrete driver is selected to allocate the funding for that project to the various mission areas of
the Coast Guard. In most cases, the driver is the percentage of time the new asset is expected to
contribute to the drug control mission based on the corresponding percentage of time that the
asset it will replace contributed to the drug control mission. If the new asset will not replace a
similar asset, the new asset's drug-related contribution is either based on a like asset or on
experienced professional judgment. The program percentage spreads for each of these drivers
are extracted from the mission cost model. Furthermore, as mentioned above, unlike OE's
annual funding, AC&I h d i n g is available for obligation for up to five years, depending on the
nature of the project. Therefore, various spikes in operational activity (e.g. reduced/increased
aircraft and/or cutter resource hours) will directly effect OE cost allocations in a given fiscal
year, but will have relatively little effect on AC&I obligations.
(1) Drug Methodology (Continued)
Reserve Training
    The Coast Guard allocates a portion of the Reserve Training (RT) decision unit finds to the
drug interdiction program. RT funds are used to support Coast Guard Selected Reserve
personnel who support and operate Coast Guard facilities, maintain capital equipment, improve
management effectiveness, and assist in sustaining all Coast Guard operations. The actual FY
2004 obligations for the RT decision unit is determined using the same methodology used for
OE.
Research, Development, Test and Evaluation
    The final decision unit is Research, Development, Test and Evaluation (RDT&E). As with
the AC&I Appropriation, scoring of drug interdiction h d i n g is accomplished within the zero-
based RDT&E decision unit and every line item requested in the FY 2004 RDT&E budget was
evaluated for its anticipated contribution to drug interdiction efforts. Generally, each RDT&E
project, has a discrete driver that is selected to allocate the funding for that project to the various
mission areas of the Coast Guard. These drivers are based upon experienced professional
judgment. Once the unique program driver is determined the program percentage spreads for
each of these drivers are extracted fiom the mission cost model.
(2) Methodology Modifications
    The methodology described above has not been modified from the previous year.
(3) Material Weaknesses or Other Findings

   As a result of the CFO Act audit, material weaknesses impacting the obligation process were
noted. We do not feel that these findings would have a significant impact on the figures
contained in this report.
(4) Reprogrammings or Transfers
   No reprogrammings or transfers of drug related budget resources in excess of the ONDCP's
$5 million threshold occurred during FY 2004.
(5) Other Disclosures
       The following provides a synopsis of the United States Coast Guard's FY 2004 Drug
    Control Funds reporting which describes:
       1. The agency's overall mission and the role of drug interdiction efforts within the Coast
           Guard's multi-mission structure;
       2. The Coast Guard's drug control budget submission.
(5) Other Disclosures (Continued)

    Coast Guard Mission
    The Coast Guard is a military service with mandated national security and national defense
responsibilities in addition to being the United States' leading maritime law enforcement agency
with broad, multi-faceted jurisdictional authority. The Coast Guard is a multi-mission maritime
service consisting of 11 complementary program areas: Drug Interdiction; Migrant Interdiction;

   Ports, Waterways and Coastal Security; Other Law Enforcement; Defense Readiness; Search
and Rescue; Marine Safety; Ice Operations; Marine Environmental Protection; Living Marine
Resources; and Aids to Navigation.

     The Coast Guard faces many of the same challenges as the other four military services when
it comes to deciding which assets should be deployed for what missions and where. This is not
only true between the broad categories of missions, but also within sub-sets of the various
missions the Coast Guard undertakes. For example, assets used for the Enforcement of Laws
and Treaties must be divided between drug interdiction and migrant interdiction, as well as
enforcement of fishing regulations and international treaties. Due to the multi-mission nature of
the Coast Guard and the necessity to allocate the effort of a finite amount of assets, there is a
considerable degree of asset "cross-over" between the missions. This crossover contributes to
the challenges the Coast Guard faces when reporting costs for the various mission areas.
    Coast Guard's Drug Budget
    In the annual National Drug Control Strategy (NDCS) Budget Summary, all agencies present
their drug control resources broken out by function, and decision unit. The presentation by
decision unit is the one that corresponds most closely to the Coast Guard's congressional budget
submissions and appropriations. It should be noted and emphasized that the Coast Guard does
not have a specific appropriation for drug interdiction activities. All drug interdiction operations,
capital improvements, reserve support, and research and development efforts are funded out of
general Coast Guard appropriations. For the most part, the Coast Guard drug control budget is a
reflection of the Coast Guard's overall budget. The Coast Guard's Operating Expenses
appropriation budget request is incremental, focusing on the changes from the prior year base
brought forward. The Coast Guard continues to present supplementary budget information
through the use of a model, which allocates its base funding and incremental requests by
mission.

    This general purpose Mission Cost Model serves as the basis for developing drug control
budget estimates for the OE and RT appropriations and provides allocation percentages used to
develop the drug control estimates for the AC&I and RDT&E appropriations. Similarly, this is
the methodology used to complete our annual submission to ONDCP for the NDCS Budget
Summary.
(1) Obligations by Budget Decision Unit - N/A. As a multi-mission agency, the Coast Guard
is exempt from reporting under this section as noted in ONDCP Circular: Drug Control
Accounting, Sections 6a (1) (b).

(2) Drug Methodology

The following methodology was applied to derive the drug control information presented in the
table in section 6A. The information reported is timely, accurate, and repeatable and is derived
from an allocation process involving the Coast Guard's audited financial statement information.
The Coast Guard does not have a discrete drug control appropriation and its financial systems are
not structured to accumulate accounting data by operating programs or missions areas. Drug
control fhding data is developed using a systematic process for the OE and RT appropriations,
and a combination of project analysis, subject matter review and OE-based allocations for the
AC&I and RDT&E appropriations.

 (a) Data - As pointed out in the previous section, the Coast Guard reports its drug control
     funding to ONDCP for each of the four appropriations or decision units. The mechanics of
     how each decision unit's drug control data is derived as follows:
         - Operating Expenses (OE) and Reserve Training (RT) - Budget Authority or
            Expenditures are allocated to the mission areas of the Coast Guard based upon the
            output of a Mission Cost Model (MCM). This is basically an OE expenditure
            driven model that is used in presenting the mission based data shown in the OE and
            RT budget submissions across the 11 Coast Guard programs. The following data
            sources feed the OEIRT MCM:
           1. Core Accounting System (CAS) - FY 2003 expense data broken down by cost
              center, unit name, allotment fund code, and dollar amount. This data is audited
              annually as part of the Chief Financial Officers Act audit process. These
              expenses are fed into the Standard Rates and User Fees Model (SRUFM). The
              SRUFM uses an activity-based methodology to assign and allocate expenses to
              the Coast Guard's assets and certain non-asset intensive missions, such as Marine
              Safety. The resulting total cost pools serve as one of the major inputs to the
              Mission Cost Model. If current year SRUFM data is not available, the previous
              year total cost pools are normalized to fit the relevant fiscal year's asset inventory.
              For example, the FY04 actual expenses Mission Cost Model uses FY03 financial
              data, normalized to reflect changes in the Coast Guard's asset inventory from
              FY03 to FY04. The SRUFM is reconciled to the Coast Guard's Statement of Net
              Cost.
(2) Drug Methodology (cont.)
         2. Naval Electronics Supply Support System (NESSS) - The Coast Guard
            Engineering Logistics Center and Coast Guard Yard at Baltimore operate a stand
            alone financial system. Similar to the Core Accounting System, NESSS data is
            broken down by cost center, unit name, allotment fund code, and dollar amount.
            NESSS expense data is fed into the SRUFM and allocated to Coast Guard assets
            and certain non-asset intensive missions. NESSS financial data is included in the
            Coast Guard's audited financial statements.
         3. Aviation Maintenance Management Information System (AMMIS) - The
            Coast Guard Aircraft Repair and Supply Center in Elizabeth City operates a stand
            alone financial system. Similar to the Core Accounting System, AMMIS data is
            broken down by cost center, unit name, allotment fund code, and dollar amount.
            AMMIS expense data is fed into the SRUFM and allocated to Coast Guard assets
            and certain non-asset intensive missions. AMMIS financial data is included in the
            Coast Guard's audited financial statements.
         4. Abstract of Operations (AOPS) - web-based information of how an asset
            (aircraft, boat, or cutter) spent its time performing various missions of the Coast
            Guard. Each unit or activity that performs a mission is responsible for including
            the resource hours in the AOPS database.
         5. Other Expenses - The drug related pieces that feed this area of the model are the
            Tactical Law Enforcement Teams (TACLET), the Law Enforcement Detachments
            (LEDET) and the Special Projects. The percentage that drives the TACLET
            hEDET resource areas are computed from team deployment days divided by the
            total deployment days in the fiscal year for the drug interdiction mission. The
            Special Projects percentage driver is formulated from a professional judgment of
            how funding is used to support costs related to counter-drug operations such as
            Frontier ShieldRrontier Lance as well as liaison costs for Coast Guard's
            Organized Drug Enforcement Task Force (OCDETF).
         6. Mission Cost Model (MCM) Application & Results - The MCM produces a
            percentage of Coast Guard OE and RT expenditures allocated to each of the 11
            programs.
        - Normalize to BA or Obligations - The program percentages derived from the
           MCM are then applied to total OE and RT fiscal year 2004 budget authority or
           obligations (See Attachments A & B respectively) depending upon the reporting
           requirement. Budget Authority is derived from the agency's annual enacted
           Appropriation and expenditure data is derived from the final financial accounting
           Report of Budget Execution (SF-1 33).
(2) Drug Methodology (cont.)
        Acquisition, Construction & Improvements (AC&I) - is a multi-year appropriation
        where funding is available for up to 5 years depending on the nature of the project. The
        methodology used to develop the drug funding estimate is systematically different than
        that of OE and RT. AC&I drug funding levels, for either BA or obligations, is
        developed through an analysis of each projecvline item. For each line item, a discrete
        driver is selected that best approximates the contribution that asset or project, when
        delivered, will contribute to each of the Coast Guard's 11 programs. The
        progrardmission area spreads for these drivers are based on the MCM outputs. To
        ensure consistency, extracts used for the analysis of enacted BA for any fiscal year are
        used for the end of year analysis of obligations as well. For FY 2004 AC&I program
        and mission area spreads, the following data sources and methods were used:
        1. AC&I Mission Cost Model - is developed based on data feeds from the OEIRT
           MCM model as presented in the above OE/RT statements. The following data sets
           are than required to complete the AC&I MCM:
        2. Drug related percentage - The percentage spread for each driver is extracted from
           the MCM (see #I). This information is fiuther analyzed to:
           (a) Ensure a discrete driver was applied to each project consistent through the life of
           the project or;
           (b) A driver was used that was based upon historical or future projected use of an
           asset.
        3. Mission cost results/application - Once the project drivers were reviewed, they
           were applied to the total BA or obligations of the FY 2004 projecthe item to
           derive the allocated drug levels (See Attachment C). The BA levels are derived
           fiom the agency's enacted Appropriation Bill. The FY 2004 expenditure data is a
           data run from CAS of AC&I ObligatedAJnobligated Balances by Project.
    -   Research, Development, Test & Evaluation (RDTdkE) - is a no-year appropriation
        where funding, once appropriated, may be obligated indefinitely in the future until all
        balances are expended. The methodology used to develop the drug-fbnding estimate is
        similar to AC&I in that drug-funding costs are based on an analysis of each project.
        The program/mission area percentages are based upon subject matter expert review.
        The method used to compile the FY 2004 data was:
        1. Drug related percentage - The percentage spread for each driver is extracted from
           the MCM. This information is fixther analyzed to:
           (a) Ensure a discrete driver was applied to each project consistent through the life of
           the project or;
           (b) A driver was used that was based upon historical or future projected use of an
           asset.
(2) Drug Methodology - RDT&E (cont.)
         2. Subiect matter expert review of each project/line item to estimate their direct and
            indirect impact to the drug control percentage of effort.
         3. Application - Once the project drivers were reviewed, they were then applied to the
            total cost of the FY 2004 projectlline item to derive the drug-associated costs (See
            Attachment D). Budget Authority (BA) data is derived fiom the agency's enacted
            Appropriation and expenditure data is extracted fiom a Large Unit Financial
            System (LUFS) transaction summary report by project.

     (b) Other Estimation Methods - Where the MCM allocates a percentage of time/effort
         expended to a given AC&I projectnine item, in some cases changes were made to better
         represent the drug costs associated. As noted in the AC&I and the RDT&E
         methodology, experienced professional judgment is sometimes used to change a driver
         based on specific knowledge that a resource will be used differently than the historical
         profile indicates. An example of this would be in the change in the allocation of
         resource hours associated with a new Great Lakes icebreaker. In the past, icebreakers
         have dedicated a majority of their annual resource hours to ice breaking with the
         remainder of the annual resource hours being allotted to environmental response. The
         new icebreaker is being designed as more of a multi-mission asset that will be tasked
         with aids to navigation, marine safety, and search and rescue and aids to navigation
         missions in addition to its ice breaking activities. This change requires that the MCM
         allocation for this resource be manually adjusted, based on professional judgment, to
         reflect the change in the planned operating profile for the new icebreaker.
    (c) Financial Systems - Data is derived from CAS. No other financial systems or
        information are used in developing program or mission area allocations.

(3) Application of Drug Methodology - The methodology disclosed in this section was the
    actual methodology used to generate the table required by Section 6A. Documentation on
    each decision unit is provided.

(4) Reprogrammings or Transfers -- No reprogramrnings or transfers of drug related budget
    resources in excess of the ONDCP's $5 million threshold occurred during FY 2004.

(5) Fund Control Notices - The FY 2004 data presented herein is associated with obligations
    reported in Coast Guard's FY 2004 financial plan that fully complies with all Fund Control
    Notices issued by the Director under 21 U.S.C. Section l703(f) and Section 8 of ONDCP
    Circular, Budget Execution, dated April 18,2003.
                                                              Attachment A

       OPERATING EXPENSES (OE)
      MISSION COST MODEL OUTPUT:
                                                (dollars in thousands)
                                                      FY 2004
                                              Obligations      % of total

Search and Rescue (SAR)

Marine Safety (MS)

Aids to Navigation (ATON)

Ice Operations (10)

Marine Environmental Protection (MEP)

Living Marine Resources (LMR)

Drug Interdiction

Migrant Interdiction

Other Law Enforcement (OTH-LE)

Ports, Waterways & Coastal Security (PWCS)

Defense Readiness
                       Total OE Obligations
                                                               Attachment B

         RESERVE TRAINING (RT)
      MISSION COST MODEL OUTPUT:
                                                (dollars in thousands)
                                                       FY 2004
                                              Obligations      % of total

Search and Rescue (SAR)

Marine Safety (MS)

Aids to Navigation (ATON)

Ice Operations (10)

Marine Environmental Protection (MEP)

Living Marine Resources (LMR)

Drug Interdiction

Migrant Interdiction

Other Law Enforcement (OTH-LE)

Ports, Waterways & Coastal Security (PWCS)

Defense Readiness
                       Total RT Obligations
                                          DEPARTMENT OF HOMELAND SECURITY
                                                   U.S. COAST GUARD
                                FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                           DRUG CONTROL DIRECT OBLIGATIONS
                                                      (dollars in thousanh)

 FISCAL                                                                    FY 2004              Mission Cost
  YEAR                  PROJ
                                                                         Project Direct          Model % of FY 2004 Drug
 APPROP           REG    NO.                PROJECT TITLES                0bligations     Key   Drug Funding Obligations
1999       35     SRM   1301   SURVEY & DESIGN - CUTTERS & BOATS                    (1                20.00%         (0.2)
1999      35      ARM   1302   SEAGOING BUOY TENDER WLB REPLACE
1999       35     AWL   1303   COASTAL BUOY TENDER WLM REPLACE
1999      3J      AWP   1304   STERN LOADING BUOY BOAT BUSL REPL
1999      35      AWL   1305   47' MOTOR LIFEBOAT MLB REPLACEMNT
1999       3J     AIB   1306   POLAR ICEBREAKER REPLACEMENT PIR
1999      3J      GAl   1307   COASTAL PATROL BOAT CPB REPLACMNT
1999      35      ASM   1309   SURFACE SEARCH RADAR REPLACEMENT
1999       35     GAl   1310   DEEPWATER CAPABILITYREPLACE ANAL
1999      35      SRM   1312   CONFIGURATION MANAGEMENT
1999      35      SRM   1314   ATS-1 CONVERSION
1999      35      AWL   1315   MACKINAW REPLACEMENT
VESSEL, FY 1999

TOTAL 1999 APPROPRIATION (excluding reimbursables)                        $       484                          $   100.5
                                          DEPARTMENT OF HOMELAND SECURITY
                                                   U.S. COAST GUARD
                                FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                          DRUG CONTROL DIRECT OBLIGATIONS
                                                          (dollars in thousands)

  FISCAL
                                                                                FY 2004              Mission Cost
   YEAR                 PROJ
                                                                              Project Direct          Model % of FY ZOO4 Drug
  APPROP          REG NO.             PROJECT TITLES                           Obligations     Key   D r u ~Funding Obli~ations
2000     2U       ADW 1250 DEEPWATER REPLACEMENT PROJECT I

DEEPWATER, FY 2000

           2U     AFL 4201     FLEET LOGISTICS SYSTEM (FLS)
           2U     AVT 4202     PORTS &WATERWAYS SAFETY SYSTEMS
           2U     A M 0 4204   MARINE INFO FOR SAFETY & LAW INFR
           2U     SEA 4207     AVIATION LOGISTICS MGMT INFO SYS
           2U     AND 4208     NATL DISTRESS & RESPONSE SYS MOD
           2U     SCT 4212     DEFENSE MSG SYS IMPLEMENTATION
           2U     WRI 4214     PERSONNEL MGMT INFO SYS JOINT UNI
           2U     SCT 4215     COMMERCIAL SATELLITE COMM UPGRADE
           2U     T     4312   TISCOM CGMS

OTHER EQUIPMENT, FY 2000

                               HYDE PARK REFUND - SHORE

                  SEC                         -
                               SURVEY & DESIGN SHORE PROJECTS
                  SEC          WATERWAYS ATON INFRASTRUCTURE
                  SEC          CG HOUSING - VARIOUS LOCATIONS
                  SEC          MINOR AC&I SHORE CONSTR PROJECTS
                  SEC          RENOVATE AIR STA HANGER KODIAK AK
                  SEC          AIR STA RAMP STRUL IMPRV ECITY NC
                  SEC          RENOVATE AIR STA MIAMI HANGER
                  SEC          UPGRADE EDU FACL CG ACADEMY
                  SEC          CONSTR PATROL BOAT MAINT FAC PR
                  SEC          MODERNIZE CG STA SHINNECOCK
                  SEC          RELOCATE CG MARINE SAFETY OFF&STA
                  SEC          HOMEPORTING OF DRUG INTERDICTION
                  SEC          UNALASKA PIER

SHORE PROGRAM,FY 2000

                  SEN   1401   SURVEY&DESIGN-CUTTERS&BOATS
                  AWL   1402   SEAGOING BUOY TENDER REPLACEMNT
                  AWL   1404   STERN LOADING BUOY BOAT REPLACE N
                  AWP   1405   47FT MOTOR LIFEBOAT REPLACEMENT
                  AIB   1406   POLAR ICEBREAKER REPLACE (HEALY)
                  AWP   1407   COASTAL PATROL BOAT REPLACEMENT
                  AWP   1409   SURFACE SEARCH RADAR REPLACEMENT
                  SEN   1411   POLAR CLASS RELIABILITY IMPROVMNT
                  SEN   1412   CONFIGURATION MGMT (CM)
                  AGL   1413   MACKINAW REPLACEMENT

VESSEL, FY 2000

2000       5U     AGL 1513 MACKINAW REPLACEMENT

TOTAL FY 2000 APPROPRIATION (excluding reirnbursables)
                                            DEPARTMENT OF HOMELAND SECURITY
                                                     U.S. COAST GUARD
                                  FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                            DRUG CONTROL DIRECT OBLIGATIONS
                                                         (dollars in thousands)

  FISCAL                                                                                                     Mission Cost
                                                                               FY 2004
   YEAR                   PROJ
                                                                             Project Direct                   Model % of FY ZOO4 Drug
  APPROP            REG    NO.             PROJECT TITLES                     0bligations       Key          Drug Funding Obligations
200 1    2W         CBU   0201 DIRECT PERSONNEL COST
200 1    2W         GA    0202 CORE ACQUISITION COSTS
2001     2W         CBU   0203 CCS ADMINISTRATIVEACCOUNT

ADMIN, FY 2001

                                 HH-65 HELO MISSION COMPUTER REPLA                              HH-65
                                 HH-65 LTS-101 ENGINE LIFE CYCLE
                                 AVIATION SIMULATOR MODERNIZATION                                A/c
                                 CG CUTTER HEALY AVIATION SUPPORT                                AIC


AIRCRAFT, FY 2001

200 1      3W       ADW 5350     DEEPWATER CAPABILITY REPLACE PROJ                               IDS


DEEPWATER, FY 2001

                  AFL 4301 FLEET LOGISTICS SYSTEM (FLS)                                        CUTTERS
                  AVT 4302 PORTS & WATERWAYS SAFETY SYSTEM
                  GS 4303 GLOBAL MARITIME DISTRESS & SAFETY
                  AM0 4304 MARINE INFO FOR SAFETY & LAW ENFR
                  GS 4307 AVIATION LOGISTICS MGMT SYSTEM                                          AIC
                  AND 4308 NATL DISTRESS & RESPONSE SYSTEM                                    HlSTORlCAL
                  GS 4312 DEFEMSE MESSAGE SYSTEM (DMS)
                  GW 4314 PERS MGMT INFO SYS JOINT UNIFORM
                  GS 4315 COMMERCIAL SATELLITE COMM UPGRADE                                    GEN-OE
                  GO 4316 SAR CAPABILITIES ENHANCEMENT PROJ
                  GO 4317 LOCAL NOTICE TO MARINERS (AUTO)

OTHER EQUIPMENT, FY 2001

                                 SURVEY AND DESIGN                                             GEN-OE
                                 WATERWAYS ATON INFRASTRUCTURE
                                 CG HOUSING - VARIOUS
                                 MMOR ACI CONSTRUCTION PROJECTS                                GEN-OE
                                 TRANSPORTATION IMPROVE ALEMEDA CA                             GEN-OE
                                 CG MEDIUM ENDURANCE CUTTER PORTS                              CUlTERS
                                 MODERNIZE CG FACILITIES CAPE MAY                               GEN-OE
                                 REBUILD CG STA PORT HURON PH-I                                 GEN-OE
                                 MODERNIZE CG STA PORT ANGELES HGR                              GEN-OE
                                 HOMEPORTING PIER CONSTR HOMER AK                               GEN-OE
                                 HELIPAD MODERNIZATION CRAIG AK                                 GEN-OE
                                 RENOVATE AIR STA HANGAR KODIAK AK                              GEN-OE


SHORE PROGRAM, FY 2001

                    GS    1501   SURVEY & DESIGN CUTTERS & BOATS                              CutterdBoats
                    AWL   1502   SEAGOING BUOY TENDER REPLACEMENT                              l8O'WLB
                    GA    1506   POLAR ICEBREAKER USCGC HEALY
                    AWP   1507   87 FT PATROL BOAT REPLACEMENT                                  ST WPB
                    AWP   1509   SURFACE SEARCH RADAR REPLACEMENT                              CUTTERS
                    GS    1511   POLAR CLASS ICEBREAKER RELIABILIT
                    GS    1512   CONFIGURATION MANAGEMENT SYSTEM                               CUTTERS
                    GS    1514   ALEX HALEY CONVERSION PROJECT PI1
                    GO    1521   OVER THE HORIZON CUTTER BOATS
                    GS    1522   CG PATROL CRAFT CONVERSION PROJ
                    CBU   7520   TRUST FUND SHARE OF EXPENSENESS

VESSEL, FY 2001

TOTAL FY 2001 APPROPRIATION (excluding reimbursables)
                                         DEPARTMENT OF HOMELAND SECURITY
                                                  U.S. COAST GUARD
                               FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                         DRUG CONTROL DIRECT OBLIGATIONS
                                                        (dollars in thousands)

  FISCAL
   YEAR                PROJ
                                                                              FY 2004                   Mission Cost
                                                                            Project Direct               Model % of FY 2004 Drug
 APPROP           REG NO.              PROJECT TITLES                        Obligations      Key       Drug Funding Obligations
2002      3B      CBU 0301 AC&I PERSONNEL COSTS
2002      3B      G A 0302 AC&I CORE COMPETENCIES & CAPABILI
2002      3B      CBU 0303 CCS UNDISTRIBUTEDACCOUNT
ADMIN, FY 2002

2002       4B    G S 2401     AVIATION PARTS & SUPPORT
2002       4B    G A 2460     C 1305 SYS PROVISIONING & TRAININ
AIRCRAFT, FY 2002

                              INTERGRATED DEEPWATER SYSTEM                                     IDS



2002      48   G A 4402       PORTS & WATERWAY SAFETY SYS PAWSS                              GEN. OE
2002      4B   G S 4403       GLOBAL MARTINE DISTRESS & SAFETY
2002      4B   G A 4404       MARINE INFORMATION FOR SAFETY & L                              GEN. OE
2002      4B   G A 4408       NATIONAL DISTRESS & RESPONSE SYS                                NDRSP
2002      4B   G S 4412       DEFENSE MESSAGING SYS DMS IMPLETA                              GEN. OE
2002      4B   G S 4415       COMMERCIAL SATELLITE COM SATCOM                                GEN. OE
2002      4B   G O 4416       SEARCH & RESCUE CAPABILITIES ENHA
2002      4B   G S 4417       13TH DISTRICT MIRCOWAVE MODERNIZI                              GEN. OE
2002      4B   G S 4418       HAWAII RAINBOW COMMUNICATION SYS                               GEN. OE
2002      4B   G S 4419       HIGH FREQUENCY HF RECAPITALIZATIO                              GEN. OE
2002      4B   G 0 4422       COMMAND CTR READINESS & MFRA REC                               GEN. OE
2002      4B   G S 4423       P 250 PUMP REPLACEMENT                                         CUTTERS
2002      4B   G S 4424       CONFIGURATION MANAGEMENT PHRASE11                              CUTTERS
2002      4B   G S 4425       SELF CONTAlNED BREATHING APPARATU                              GEN. OE
2002      4B   G S 4427       MARITIME ELECTRIC OPTICAL MFRAR                                CUTTERS
2002      4B   G S 4428       ICE DETECTING RADAR CORDOVA AK
2002      4B   A    4429      PAWSS                                                          GEN. OE
2002      4B  T     4430      CUTTER DEFENSE MESSAGING SYS REPL                              CUTTERS
OTHER EQUIPMENT, FY 2002

2002      4B   G S 3401       SURVEY & DESIGN SHORE OPS PROJECT                              GEN. OE
2002      4B   G S 3403       WATERWAYS AIDS TO NAVIGATION MFR
2002      4B   G S 3405       COAST GUARD HOUSING VARIOUS LOCAT                              Gen.AC&I
2002      4B   G S 3407       MINOR AC&I SHORE CONSTRUC PROJECT                              GEN. OE
2002      4B   G S 3410       CONSOLIDATE WHSE - CG YARD, MD                                 GEN. OE
2002      4B   G S 3411       REPLACE CG STA PORT HURON-PHASE11                              41' BOAT
2002      4B   G S 3413       CONSTRUCT NEW STA BRUNSWICK                                    GEN. OE
2002      4B   G S 3414       REPLACE ISC BOSTON BUILDING 8 UTL                              GEN. OE
2002      4B   G S 3416       RECONSTRUCT N WALL ESCANABA DOCK                               GEN. OE
2002     48    G S 3417       CONSTRUCT NESU-ESU ENG BLDG HONOL                              GEN. OE
2002      48   G S 3418       CONSOLIDATION OF KODIAK AVA SPT                                    AIC
2002      4B   G S 3419       REBUILD ISC SEATTLE PIER PHASE1                                GEN. OE
2002      4B        3420      CG MARINE SAFETY & RESCUE STA CHI                              41' BOAT
2002      4B   099 3421       ISC SEATTLE PROJECT (CCS UNDIST)
2002      4B   T    3422      STATION OAK ISLAND NC FIRE DAMAGE                              GEN. OE
2002      4B   T    3424      HOMELAND SECURITY SHORE INFRASTRU                              GEN. OE
SHORE PROGRAM, FY 2002

2002       4B     A    1407 87 FOOT BOARDING & ESCORT PATROL                                   CPB
VESSEL, FY 2002

2002     6B     G D 5650      INTERGRATED DEEPWATER SYS PROGRAM                                IDS
DEEPWATER, FY 2002

2002       6B     GS   1601   SURVEY & DESIGN CUTTERS & BOATS
2002       6B     GA   1602   SEAGOING BUOY TENDERS WLB REPLACE
2002       6B     GO   1603   85 FOOT FAST PATROL CRAFT                                       DRUG
2002       6B     GA   1604   41 FOOT UTILITY BOAT REPLACEMENT                                 UTB
2002       6B     GS   1611   POLAR CLASS ICEBREAKER RIP PROJEC
VESSEL, FY 2002

TOTAL FY 2002 APPROPRIATION (excluding reimbursables)
                                                                  14
                                        DEPARTMENT OF HOMELAND SECURITY
                                                 U.S. COAST GUARD
                              FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                        DRUG CONTROL DIRECT OBLIGATIONS
                                                       (dollars in thousan&)

  FISCAL
                                                                             FY 2004                     Mission Cost
   YEAR               PROJ
                                                                           Project Direct                 Model % of FY 2004 Drug
 APPROP           REG NO.             PROJECT TITLES                        0bligations       Key        Drug Funding Obligations
2003      4G      H  0401 DIRECT PERSONNEL COSTS                                    (986)    Gen.AC&I          17.21%       (169.7)
2003      4G      H  0402 ACI CORE
ADMM., FY 2003

                             LTS 101 ENGINE IMPROVESMENTS

2003      5G  A      4502    PORTS - WATERWAY SAFETY PAWSS                                  GENERAL OE
2003      5G  T      4503                              -
                             GLOBAL MARTINE DISTRESS SAFETY
2003      5G  A      4508                    -
                             NATIONAL DITRESS RESPONSE SYS                                  RESCUE-21
2003      5G  T      4512    DEFENSE MESSAGE SYS DMS IMPLEMT                                 GEN. OE
2003      5G  T      4517    GLOBAL MARITIME DISTRESS - SAFETY                               GEN. OE
2003      5G  T      4518    HAWAII RAINBOW COMMUNICATION SYS                                GEN. OE
2003      5G  T      4519    HIGH FREQUENCY RECAPITALIZATION                                 GEN. OE
2003      5G  T      4520    PRINCE WILLIAM SOUND MICROWAVE                                  GEN. OE
2003      5G  D      4521    MARITME DOMAIN AWARENESS INFO MGT                               GEN. OE
2003      5G  D 4522         SECURITY SURVEILLANCE - PROTECT                                RESCUE-21
OTHER EQUIPMENT, FY 2003

2003      5G   T    3501            -
                             SURVEY DESIGN SHORE PROJECTS                                    GEN. OE
2003      5G   T    3503     WATERWAYS AIDS TO NAVIGATION INF
2003      5G   T    3505     HOUSING PROJECTS                                                GEN. OE
2003      5G   T    3507     MINOR ACI SHORE CONSTRUCTION PRO                                GEN. OE
2003     5G. T      3518     CONSOLIDATION OF KODIAK AVI - SUP                                 AIC
2003      5G   T    3519     REBUILD ISC SEA'ITLE PIER 36 PHI                                GEN. OE
2003      5G   T    3521     STATION MANISTEE MI CONSTRUCTION
2003      5G   T    3530     VESSEL PIER FACILITY CORDOVA AK                                 GEN. OE
SHORE PROGRAM, FY2003

2003     6G     2            MARTINE PATROL AIRCRAFT                                           ms
2003     6G     2            OTHER CONTACTS LEGACY SUSTAINMT                                   IDS
2003     6G     2            NATIONAL SECURITY CUTTER                                          IDS
2003     6G     2            110 - 123 PATROL BOAT UPGRADE                                     IDS
2003     6G     2            SHORT RANGE PROSECUTOR                                            ms
2003     6G     2            OTHER CONTRACTS LEGACY SUSTAINMT                                  IDS
2003     6G     2            270 FOOT CUTTER C4ISR UPGRADE                                     IDS
2003     6G     2            2 10 FOOT CUTTER C4ISR UPGRADE                                    ms
2003     6G     2            378 FOOT CUTTER C4ISR UPGRADE                                     IDS
2003     6G     2            SHORES SITES                                                      ms
2003     6G     2            OTHER CONTRACTS LEGACY SUSTAINMT                                  IDS
2003     6G     2            MTERGRATED LOGISTICS SUPPORT                                      IDS
2003     6G     2            SHORES SITES                                                      IDS
2003     6G     2            SYSTEMS ENGINEERTNG - INTERGRAT                                   IDS
2003     6G     2            GOVERMENT PROGRAM MGT                                             IDS
DEEPWATER, FY 2003                                                                             IDS


2003     7G     H     5750
2003     7G     H     5752
DEEPWATER, FY 2003                                                                             IDS


2003       7G     T   1701                         -
                             SURVEY - DESIGN CUTTER BOATS
2003       7G     A   1702   SEAGOING BUOY TENDER WLB REPLACE
2003       7G     A   1704   41 FOOT UTB - NSB REPLACEMENT                                   41' BOAT
2003       7G     A   1707   87 FOOT COASTAL PATROL BOAT                                      87' WPB
2003       7G     T   1711   POLAR CLASS ICE BREAKER IMPROVEMT
2003       7G     T   1714   ALEX HALEY CONVERSION PROJECT I1
VESSEL, FY 2003

TOTAL FY 2003 APPROPRIATION (excluding reimbursables)
                                           DEPARTMENT OF HOMELAND SECURITY
                                                    U.S. COAST GUARD
                                 FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                           DRUG CONTROL DIRECT OBLIGATIONS
                                                        (dollars in thousands)

  FISCAL
                                                                              FY 2004                                 Mission Cost
   YEAR                 PROJ
                                                                            Project Direct                             Model % of FY ZOO4 Drug
  APPROP          REG NO.                    PROJECT TITLES                  Obligations            Key               Drug Funding Obligations
2004       4K     GCG   0400    PERSONNEL COMPENSATION BENEFITS
2004       4K     A     0401    DIRECT PERSONNEL COSTS
2004       4K     GA    0402    ACICOREACQUITION
2004       4K     A     0460    C 130J AIRCRAFT DOD PL 108-87

ADMM, FY 2004                                                                      68,726                                               17,160.9

2004       4K     2     54A4 C- 130 PROJECT - SUPPLEMENTAL                         60,000          C-130


DEEPWATER, FY 2004

2004       6K     GA    4602    OIL SPILL PREVENTION EFFORTS PAWS                     601        GEN. OE
2004       6K     GA    4608    NATIONAL DISTRESS RESPONSE SYS MO                  40,868       RESCUE-21
2004       6K     GS    46 12   DEFENSE MESSAGING SYS DMS IMPLEM                                 GEN. OE
2004       6K     GA    4650    AUTOMATION IDENTIFICATION SYS                      15,922        GEN. OE

OTHER EQUIPMENT, FY 2004                                                           57,391                                                2,032.1

                                MARITIME PATROL AIRCRAFT                                           EN-25
                                UNMANNED AIR VEHICLES                                          C-13O/HU-25
                                OTHER CONTRACTS LEGACY SUSTAINMET                            TRAD-IDS (NC)
                                NATIONAL SECURITY CUTTER                                        378' Cutters
                                FAST RESPONSE CUTTER 110 123 FT                                 110' Cutters
                                SHORT RANGE PROSECUTOR                                       378',2701,21 O', 1 10'
                                OTHER CONTRACTS LEGACY SUSTAINMT                             378',2701,2lo', 110'
                                OFFSHORE PATROL CUTTER CONCEPT                               270', 11 0 Cutters
                                COMMAND CONTROL SYS FOR COMMON OP                               m-IDS
                                CUTTER UPGRADE C4ISR                                         378',270',210'.110'
                                SHORE SITES                                                     TRAD-IDS
                                OTHER CONTRACTS LEGACY SUSTAINMT                                TRAD-IDS
                                INTERGRATED LOGISTICS SUPPORT                                   m-IDS
                                FACILITIES DESIGN REQUIRED FOR FU                                TRAD-IDS
                                SYSTEMS ENGIEERING INTERGRATED                                   m - I D S
                                GOVERNMENT PROGRAM MANAGEMENT                                    TRAD-IDS
                                SHORE FACILITIES                                                 TRAD-IDS


DEEPWATER, FY 2004                                                                497,175


2004       8K     GA    1804 41 FT UTB NSB REPLACEMENT PROJECT                          2         4 1' UTB
2004       8K     GA    1807 ENFORCE SECURITY ZONES 9 ADD CPBS                     33,804         8TWPB
2004       8K     GA    18 13 GREAT LAKE ICEBREAKER GLIB REPLAC                     1,988

VESSEL, FY 2004                                                                    35,794

TOTAL FY 2004 APPROPRIATION (excluding reimbursables)                        $   719,086
                                          DEPARTMENT OF HOMELAND SECURITY
                                                   U.S. COAST GUARD
                                FY 2004 ACQUISITION, CONSTRUCTION AND IMPROVEMENTS
                                          DRUG CONTROL DIRECT OBLIGATIONS
                                                       (dollars in thousands)

  FISCAL                                                                                           Mission Cost
                                                                              FY 2004
   YEAR                 PROJ
                                                                            Project Direct          Model % of FY ZOO4 Drug
 APPROP           REG    NO.               PROJECI' TITLES                   Obligations     Key   Drug Funding Obligations
NO      X3        H     1013   ACI                                                  11,367
                  ASM   1312   378-FOOT WHEC FRAM
                  AWL   1313   WLB REPLACEMENT
                  AWP   1314   ACI NO YEAR
                  SRM   1880   LISA CHECK
                  SRM   1911   ACQUISITION C3 PLATFORMS 2
                  GO    1912   DEPLOYABLE PURSUIT BOAT ACQUISITI
                  GAl   1913   BARRACUDA CLASS COASTAL PATRL BTS
                  SRM   1914   CUTTER SENSOR & COMM SYSTEMS
                  GA1   1915   BARRACUDA CLASS COASTAL PATRL BTS
                  SRM   1916   CUTTER SENSOR & COMM SYSTEM

VESSEL, FY NO

                  H   2060     ACI
                  H   2061     ACI
                  ARM 2309     MRR HELICOPTER HH60 DRUG
                  SRM 2310     APS RADAR DRUG
                  ASM 2342     TRAFFIC COLLISION AVOID SYS
                  SRM 2910     MARITIME PATRL AIRCRAFT ACQUISITN
                  SRM 2917     REACTIVATE OF HU-25 JETS
                  G O 2918     OPERATNL TEST, FORCE FRM AIRCRAFT
                  SRM 2919     AIRCRAFT SENSOR & C- 130 ENGINE UP

AIRCRAFT, FY NO

NO         X3     GS 3160      FYOl SUP-NISQUALLY EARTHQUAKE
NO         X3     SRM 3480     MIDWEST FLOOD
NO         X3     SRM3879      ATC MOBILE
NO         X3     SRM3918      HURRICANE GEORGES SUPPLEMENTAL
NO         X3     CBU 3950     HYDE PARK PROCEEDS

SHORE PROGRAM, FY NO

NO         X3     SRM 4380 COMSTA MIAMI RESTORE (ANDREW)
NO         X3     CFS 4515 REFUND ACT

REFUND, FY NO

NO         X3     CBU 7950     REFUND PROGRAM
NO         X3     H   9999     UNDISTRIBUTED

NO YEAR PROJECTS

TOTAL NO-YEAR APPROPRIATION (excluding reimbursables)

TOTAL ALL-YEARS
                                                                                    Attachment D
                        DEPARTMENT OF HOMELAND SECURITY
                                   U.S. COAST GUARD
                   RESEARCH, DEVELOPMENT, TEST AND EVALUATION
                      Annual Accounting of FY 2004 Drug Control Funds
                                   (dollars in thousands)

                                                                                  Pct. For
                                                              FY 2004     DRUG   Drug Law
   Budget SheetslPronramslLineItems                          Obligations BUDGET Enforcement

GI. Marine Safety
 a. Risk Competancy
 b. Human EffodHuman Performance
        SUBTOTAL, NON-PERSONNEL
   Direct Project Personnel

6 2 . Waterways Safety & Management and Aids to Navigation        658          42       6.4%
   a. Navigation Aids                                             179     --
   b. Vessel Traffic                                              210          25
         SUBTOTAL, NON-PERSONNEL
     Direct Project 'Personnel

G3. Marine Environmental Protection                              1,084    --            0.0%
 a. Oil Spill Response
 b. Aquatic Nuisance Species Control
        SUBTOTAL, NON-PERSONNEL
   Direct Project Personnel

6 4 . Comprehensive Law Enforcement
  a. Improve Domain Awareness
  b. Enhanced Interdiction Capability
  c. Contraband Detection and Vessel Stopping
        SUBTOTAL, NON-PERSONNEL
    Direct Project Personnel

G5. Technology Investment
  a. Technology Assessment
  b. Select Projects
  c. Command Center Concept Exploration
         SUBTOTAL, NON-PERSONNEL
    Direct Project Personnel

66. R&D Personnel, Program Support & Operations
  a. Admin/Support Personnel & Related Costs
  b. Support and Operations

      TOTAL REQUEST
U.S. Department                       Commandant                          2100 Second Street, S.W.
Homeland Secur                        United States Coast Guard           Washington, DC 20593-0001
                                                                          Staff Symbol: CG-822
                                                                          Phone: (202) 267-2415
United States                                                             Fax: (202) 267-4850
Coast Guard                                                               Email:




MEMORANDUM                                                                MAR   x & 2005
        v              w
From: RADM R. R. HG~                                              Reply to CG-82
      Acting G-CCS                                                Attn of Mr. Dave Pokora
                                                                           202-267-2415
To:         Acting Inspector General
            Department of Homeland Security
Subj:       INDEPENDENT REVIEW OF THE U.S. COAST GUARD REPORTING OF FY 2004
            DRUG CONTROL FUNDS - AUDIT REPORT NO. OIC-05-13

1. In response to your request for Coast Guard's concerns to the content of the subject draft audit
report, I recommend you include the following changes:

  a. Change the official title of this report to: Independent Review of the ~ S - k o a sGuard
                                                                                          t
Annual Accounting of FY 2004 Drug Control Funds.

   b. In the context of paragraph 3, we recommend you include a statement that explains Coast
Guard corrections of material weaknesses discussed are part of the CFO remediation plan.

2. If you require additional assistance on this matter, please contact Mr. Dave Pokora at
202-267-24 15.
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Ofﬁce of Inspector General/MAIL STOP
2600, Attention: Ofﬁce of Investigations - Hotline, 245 Murray Drive, SW, Building
410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The OIG seeks to
protect the identity of each writer and caller.
